                                                              UNITED STATES DEPARTMENT OF COMMERCE
                                                              The Inspect or Gener al
                                                              Washington. D.C. 20230




May II, 2012

The Honorable Harold Rogers                    The Honorable Norman D. Dicks
Chairman, Committee on Appropriations          Ranking Member, Committee on Appropriations
The Capitol, Room H-307                        The Capitol, Room H-307
U.S. House of Representatives                  U.S. House of Representatives
Washington, DC 20515                           Washington, DC 20515

The Honorable Frank R. Wolf                    The Honorable Chaka Fattah
Chairman, Subcommittee on Commerce,            Ranking Member, Subcommittee on Commerce,
 Justice, Science, and Related Agencies         Justice, Science, and Related Agencies
The Capitol, Room H-309                        The Capitol, Room H-309
U.S. House of Representatives                  U.S. House of Representatives
Washington, DC 20515                           Washington, DC 20515

Dear Chairman Rogers, Ranking Member Dicks, Chairman Wolf, and Ranking Member Fattah:

This letter responds to the House Committee Report regarding the FY 2012 Commerce,
Justice, Science, and Related Agencies Appropriations bill. The Committee directed us to
review the administrative costs of Trade Adjustment Assistance Centers (TAACs), which
administer the Trade Adjustment Assistance (TAA) for Firms program for the Economic
Development Administration (EDA). We have evaluated the TAAC expenses and have made
several observations regarding the reasonableness of administrative costs charged by the
TAACs.

As part of the review, we obtained the most recent available expenditure data from three
TAACs: New England (NETAAC), New York State (NYSTAAC), and Western (WTAAC). Our
review focused on the use of federal funds provided by EDA and was limited to an analysis and
comparison of expenses among the T AACs as well as interviews with EDA staff. We did not
verify expenses; test Internal controls; or test compliance with laws, regulations, or contracts
applicable to the TAAC program and do not express an opinion on the expense information
provided by EDA or the T AACs.

Back~round
EDA's Trade Adjustment Assistance for Firms program is authorized under chapter 3 of title II
of the Trade Act of 1974, as amended. The TAA program exists to provide technical assistance
to U.S. firms experiencing a decline in sales and employment, resulting in part from the increase
in imports of like or directly competitive articles, to become more competitive in the global
marketplace. EDA funds and works in partnership with a national network of I I T AACs, which
provide firms that seek to be certified as eligible to apply for trade adjustment assistance with
no-cost support in completing and submitting petitions to EDA.



                                                1
As described in EDA's most recent budget submission, within 2 years of the date of its
certification of eligibility to apply for trade adjustment assistance, a firm must submit an
adjustment proposal (AP) to EDA. Typically, the TAAC works with the firm to prepare the AP,
and the firm must pay at least 25 percent of the preparation costs. The AP analyzes the
strengths, weaknesses, threats, and opportunities of the firm; compares it with other firms in
the same industry; and outlines specific technical assistance tasks to assist the firm in regaining
its economic competitiveness in the global marketplace. EDA must approve the AP; thereafter,
the firm and T AAC work together to locate suitable consultants. A firm must pay between 25
and SO percent of the total consultant costs to implement the technical assistance tasks
outlined in the AP, and EDA and the T AAC fund the remaining costs.

Summary of Findin~s
We did not determine the level of administrative costs of the three T AACs to be unreasonable,
based on our recalculations of EDA-provided data. Table I contains the GIG-calculated
administrative expenses as a percentage of total expenses for three T AACs.

Table I: GIG-Calculated Administrative Expenses as a Percentage of Total Expenses
 by Funding Year
                            2007            1 2008              2009               2010            1   Average
NETAAC                      21.43%            20.32%             14.36%            11.44%              16.89%

NYSTAAC                     25.84%            19.69%            20.93%             14.41%              20.21 %

WTAAC                                                            15.69%            14.72%              15.21%
Source: OIG from expenditure data provided by NETAAC, NYSTAAC, and WTAAC. Data for 2007 and 2008
were not available for WTAAC because it did not track e xpenses by activity until funding year 2009.

Note: Values in table have been rounded to the nearest 0.0 I%.



However, we noted that

       •    EDA cannot readily determine the true T AAC program activity costs and
       •    EDA has not considered options beyond existing TAACs fo r executing the T AA
            program.

Our detailed analysis ofTAAC program activity costs is provided in appendix B.

EDA cannot readily determine the true TAAC program activity costs

A General Accounting Office (GAO) December 2000 review of the T AA program from 1995
through 1999 found the T AACs used 39 percent of total expenses for contractual expenses
and 61 percent of total expenses for administration and operations of the 12 T AACs. 1
Contractual expenses fund technical assistance from third-party consultants. All other expenses

1
    U.S. General Accounting Office, December 2000. Trade Adjustment Assistance: Impact of Federal Assistance to Firms
Is Unclear, GA0-0 1-12. Washington, D.C.: GAO.



                                                            2
are administrative or operational and are associated with helping firms with the initial
certification process, developing business recovery plans for certified firms, and funding day-to-
day operations. An analysis of more recent budgeted expenses for the I I current TAACs
shows a similar ratio to that identified by GAO (see appendix A). 2 However, we found that
comparing these numbers may not be the most effective way to measure administrative and
programmatic cost performance for the TAACs.

EDA considers programmatic expenses to be all expenses incurred by the TAACs in working
with actual and potential clients. TAACs provide EDA with information on programmatic
expenses by cost category, including personnel, fringe benefits, travel, equipment, supplies,
contractual, construction, and "other" (see appendix A). We found that the TAACs have now
also begun tracking certain expenses by more specific program activities such as outreach,
petition development, AP development, and implementation, with all other costs falling under
TAAC administration. This information was not available when GAO conducted its earlier
review. However, although this level of clarity is available, the TAACs do not appear to be
consistent in how each one allocates costs among these activities.

We obtained expenditure data from NETAAC, NYSTAAC, and WTAAC for the most recent
four grant funding years, including any allocation of expenses by the TAACs into the specific
program activities the TAACs now identify (outreach, petition development/certification, AP
development, implementation, and administration). We allocated all remaining expenses to the
program activities (see appendix B). We then identified significant differences in the level of
calculated expenses for each activity among the different TAACs. For example, as shown in
appendix B, table 3, NETAAC averaged less than Ipercent of total expenses for outreach
activities, while NYSTAAC averaged approximately 13 percent and WTAAC approximately 18
percent. AP development and implementation expenditures (including contractual expenses)
comprised approximately 81 percent of NETAAC's total expenses, 62 percent of NYSTAAC's
total expenses, and 45 percent of WTAAC's total expenses.

EDA does not require TAACs to provide a complete breakdown of all expenses by activity and
therefore cannot monitor this activity or conduct comparative programmatic analyses. EDA
only requests that TAACs track and report salary expenses by activity. As a result, EDA does
not know the true total cost of TAAC program activities, including the amount of
administrative expenses. Improved and more consistent tracking of expenses by activity from
the TAACs would allow EDA to better monitor the composition of expenses for each TAAC
and determine whether they are reasonable.

E.DA has not considered options beyond existing TAACs for executing the TAA 9rogram

As we confirmed with EDA staff, there is generally no turnover among the organizations
operating the TAACs. Each of the current TAAC operators has been in existence and receiving
TAA funds for at least several decades. Review of the Federal Register suggests there has been
no competition for operating the TAACs since at least 1994. While EDA has announced
2
 At the time of the GAO review, 12 TAACs operated the TAA program for EDA. There are currently I I TAACs,
as the New Jersey T AAC no longer exists. The TAA program for the State of New Jersey was incorporated into
the territory of the MidAdantic TAAC.


                                                    3
multiple federal funding opportunities since that time, the opportunities identified in our search
were limited to existing T AACs. 3 EDA should periodically determine whether there are other
organizations that can achieve the program's desired results more efficiently or effectively.
Furthermore, EDA has not fully explored whether cost savings can be achieved in the T AA
program through another service delivery method, such as operating the program from the
EDA regional offices with EDA staff. Although additional staff with different skill sets would
likely be required, we believe that EDA should formally consider whether this, or another
approach, can achieve cost savings while meeting the objectives of the program.

This letter was also sent to the Senate Committee on Appropriations and Subcommittee on
Commerce, Justice, Science, and Related Agencies.

If you have any questions, require further analysis, or if we can be of further assistance, please
do not hesitate to contact me at (202) 482-4661, or Ann Eilers, Principal Assistant Inspector
General for Audit and Evaluation, at (202) 482-2754.

Sincerely,
    ~

    1~1·>~
Todd J. Zi nser

Attachments

cc: Members of the Subcommittee on Commerce, Justice, Science, and Related Agencies
    Scott Quehl, Chief Financial Officer and Assistant Secretary for Administration
    Matthew S. Erskine, Acting Assistant Secretary of Commerce for Economic Development




3
  Federal funding notices have been expressly limited to existing T AACs, including notices published in 1994, 1995,
2002, 2003, 2006, 2007 and 2008. We also found that EDA published a notice and request for proposals to
administer the T AA program for the State of New jersey for a portion of FYs 2004 and 2005, but this T AAC no
longer exists.


                                                         4
                    Appendix A: Total Budgeted Expenses by TAAC, for All TAACs, Funding Years 2007–2011
                   GL           Mam            MA           MW           NE           NW           NYS             RM           SE            SW            W            Total          % of
                   TAAC         TAAC           TAAC         TAAC         TAAC         TAAC         TAAC            TAAC         TAAC          TAAC          TAAC                        Total
Personnel          $2,373,260   $1,597,484     $1,689,397   $2,593,158   $1,245,930   $2,161,118   $1,276,952      $2,818,845    $2,146,798    $2,222,320   $2,100,177   $22,225,439     28.9%
Fringe Benefits       673,965       477,610       845,906    1,027,767      297,180      892,998         491,368      780,145      545,659       560,943       580,675      7,174,216     9.3%
Travel                 74,616       192,000        86,063      121,128       72,500      196,106          67,168       63,417      140,476       248,041        92,602      1,354,118     1.8%
Equipment              –             –             22,600       51,474       41,750       36,974          33,200       42,700       –             –              9,300       237,998      0.3%
Supplies               74,945       175,000        35,462       31,980       20,000       27,166          50,800       57,917      120,495        78,600        39,450       711,815      0.9%
Contractual         2,253,577     3,016,408     4,206,671    3,410,428    5,319,775    2,668,515    2,609,512       2,433,911    2,354,628     2,679,438     1,230,456    32,183,318     41.8%
Construction           –             –             –            –            –            –               –            –            –             –             –                –        0.0%
Other                  94,009       293,000       920,258      787,140      396,500    1,091,053         253,842      401,769             -      138,391       202,800      4,578,761     5.9%
Total Direct        5,544,373     5,751,502     7,806,357    8,023,075    7,393,635    7,073,930    4,782,842       6,598,703    5,308,056     5,927,733     4,255,460    68,465,666     88.9%
Charges
Indirect Charges    1,663,311       906,152        –            –            –            –              496,383      991,203    1,903,359       673,825     1,905,233      8,539,465    11.1%
Total Federal      $7,207,683    $6,657,654    $7,806,357   $8,023,075   $7,393,635   $7,073,930   $5,279,225      $7,589,906   $7,211,415    $6,601,558    $6,160,693   $77,005,131
Expenses
Source: OIG from budget data provided by EDA

GLTAAC: Great Lakes TAAC, operated by the Regents of the University of Michigan.
MamTAAC: Mid-America TAAC, operated by the Curators of the University of Missouri-Kansas City.
MATAAC: MidAtlantic TAAC, operated by the MidAtlantic Employers’ Association.
MWTAAC: Midwest TAAC, operated by Applied Strategies International, Ltd.
NETAAC: New England TAAC, operated by the New England Trade Adjustment Assistance Center, Inc.
NWTAAC: Northwest TAAC, operated by the Trade Task Group.
NYSTAAC: New York State TAAC, operated by the Research Foundation of the State University of New York.
RMTAAC: Rocky Mountain TAAC, operated by the Regents of the University of Colorado.
SETAAC: Southeastern TAAC, operated by the Georgia Tech Research Corporation.
SWTAAC: Southwest TAAC, operated by the University of Texas at San Antonio.
WTAAC: Western TAAC, operated by the University of Southern California.




                                                                                              5
                     Appendix B: Detail of Actual Expenses by TAAC (NETAAC, NYSTAAC, and WTAAC)
                                                  for Funding Years 2007–2010

           Table 2: Calculated Actual TAAC Expenses by Activity (in dollars)
                                                2007a                       2008a                                  2009                                         2010

                                        NETAAC       NYSTAAC       NETAAC       NYSTAAC           NETAAC        NYSTAAC       WTAAC            NETAAC        NYSTAAC       WTAAC
                                b
Outreach               Direct              $7,749       $ 81,134     $ 7,578        $ 90,645       $ 10,947       $ 61,508     $ 126,308         $ 5,332       $ 86,372     $ 100,482
                                    c
                       Allocated             3,906        40,332        2,995         37,403           4,789        23,361       102,857             1,668       36,482         85,105
Petition               Direct                9,620        20,360      17,532          20,678          21,815        44,754       139,126           14,781        35,361       120,132
Development /
Certification
                       Allocated             4,849        10,117        6,930          8,926           9,545        17,662       113,295             4,625       15,196       101,747
AP Developmentd        Direct              21,076         70,096      37,135          55,960          76,762        89,893                        108,468        85,611
                       Allocated           10,623         15,516      14,678          13,706          33,586        13,495                         33,939        10,120
                 d
Implementation         Direct             866,013        262,646     823,858         478,519       1,337,000       390,670       395,310        1,480,485       678,386       399,302
                       Allocated             1,130        52,840        4,183         48,233          12,425        39,256        93,201             9,856       39,986       125,646
Administration         Direct             167,763        127,887     167,210         128,147         175,760       128,920        99,517          163,219       116,125         87,142
                       Allocated           84,560         64,767      66,093          56,679          76,900        51,236        81,040           51,070        50,119         73,806
Total                                   $1,177,288      $745,695   $1,148,193       $938,895      $1,759,528     $860,754     $1,150,653       $1,873,444    $1,153,759    $1,093,362
Source: OIG from expenditure data provided by NETAAC, NYSTAAC, and WTAAC. Funding years extend from July 1–June 30.
a
    Data for 2007 and 2008 were not available for WTAAC because it did not track expenses by activity until funding year 2009.
b
  Direct expenses are those identified by the TAACs as being specific to an activity (primarily salary and contractual expenses). If they were not included by the TAACs, we
allocated fringe benefits in proportion to salary expenses. NYSTAAC included additional expenses as direct costs, some of which did have a reasonable basis for allocation. We
removed those expenses from the direct allocation and allocated them with the remaining expenses.
c
 OIG allocated indirect costs and all other costs not attributed to a specific TAAC activity. Indirect costs were allocated based on the costs included in the indirect cost rate. All
other costs were pooled and allocated by percentage of salary expenses.
d
    WTAAC included AP development expenses with Implementation expenses.




                                                                                           6
Table 3: Calculated Actual TAAC Expenses by Activity (in percentages)
                                                2007                      2008                         2009                          2010
                                      NE          NY            NE          NY            NE        NY          W         NE       NY         W
                                      TAAC        STAAC         TAAC        STAAC         TAAC      STAAC       TAAC      TAAC     STAAC      TAAC
Outreach                 Direct1       0.66%        10.88%       0.66%         9.65%       0.62%       7.15%     10.98%    0.28%      7.49%     9.19%
                         Allocated      0.33%           5.41%     0.26%           3.98%    0.27%        2.71%     8.94%    0.09%      3.16%     7.78%
                         Total          0.99%          16.29%     0.92%          13.64%    0.89%        9.86%    19.92%    0.37%     10.65%    16.97%


Petition Development /   Direct         0.82%           2.73%     1.53%           2.20%    1.24%        5.20%    12.09%    0.79%      3.06%    10.99%
Certification
                         Allocated      0.41%           1.36%     0.60%           0.95%    0.54%        2.05%     9.85%    0.25%      1.32%     9.31%
                         Total          1.23%           4.09%     2.13%           3.15%    1.78%        7.25%    21.94%    1.04%      4.38%    20.29%


AP Development           Direct         1.79%           9.40%     3.23%           5.96%    4.36%       10.44%              5.79%      7.42%
                         Allocated      0.90%           2.08%     1.28%           1.46%    1.91%        1.57%              1.81%      0.88%
                         Total          2.69%          11.48%     4.51%           7.42%    6.27%       12.01%              7.60%      8.30%


Implementation           Direct        73.56%          35.22%   71.75%           50.97%   75.99%       45.39%    34.36%   79.02%     58.80%    36.52%
                         Allocated      0.10%           7.09%     0.36%           5.14%    0.71%        4.56%     8.10%    0.53%      3.47%    11.49%
                         Total         73.66%          42.31%   72.12%           56.10%   76.69%       49.95%    42.46%   79.55%     62.26%    48.01%


Administration           Direct        14.25%          17.15%   14.56%           13.65%    9.99%       14.98%     8.65%    8.71%     10.06%     7.97%
                         Allocated      7.18%           8.69%     5.76%           6.04%    4.37%        5.95%     7.04%    2.73%      4.34%     6.75%
                         Total         21.43%          25.84%   20.32%           19.69%   14.36%       20.93%    15.69%   11.44%     14.41%    14.72%
Source: OIG from expenditure data provided by NETAAC, NYSTAAC, and WTAAC. Data for 2007 and 2008 were not available for WTAAC because it did not
track expenses by activity until funding year 2009. Funding years extend from July 1–June 30.
Note: Values in table have been rounded to the nearest 0.01%. Therefore, column totals may not sum to 100%.




                                                                             7
